APPENDIX A

Case: 19-10750

Document: 00515355579

Page: 1

Date Filed: 03/23/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 19-10750
Summary Calendar

FILED
March 23, 2020
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff-Appellee
v.
SANTOS MONDRAGON BENITEZ,
Defendant-Appellant
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 4:19-CR-15-1
Before DAVIS, SMITH, and HIGGINSON, Circuit Judges.
PER CURIAM: *
Santos Mondragon Benitez appeals the procedural reasonableness of his
84-month sentence, which was imposed by the district court as an upward
variance from the guidelines range.

He argues that the district court

committed procedural error by basing the upward variance, in part, on the
need to protect the public, which he contends was based on an erroneous

Pursuant to 5TH CIR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
CIR. R. 47.5.4.
*

Case: 19-10750

Document: 00515355579

Page: 2

Date Filed: 03/23/2020

No. 19-10750
finding that he posed a danger to the public. He did not object to his sentence
on this basis in the district court.
When, as in this case, an appellant fails to raise an objection to the
procedural reasonableness of his sentence in the district court, our review of
that challenge is for plain error only.

See United States v. Mondragon-

Santiago, 564 F.3d 357, 361 (5th Cir. 2009). Here, the appellant argues that
plain error review should not apply, however, because he could not have
objected to the alleged procedural error until the district court issued its
written statement of reasons indicating that the variance was based, in part,
on the need to protect the public. We need not decide whether plain error
review applies because this sentencing claim fails even under the ordinary
abuse of discretion standard. See United States v. Rodriguez, 602 F.3d 346,
361 (5th Cir. 2010).
Although the district court made no explicit factual finding that the
appellant was a danger to others, the record supports the district court’s
determination that the need for the sentence to protect the public was one of
several factors warranting a sentence above the guidelines range.

The

presentence report, which the district court adopted, set forth facts showing
that the appellant engaged in criminal conduct without regard to the public’s
safety, and the district court was within its discretion to consider those facts,
which the appellant did not contest or establish to be materially untrue,
inaccurate, or unreliable. See United States v. Soza, 874 F.3d 884, 897 (5th
Cir. 2017).
The appellant has not shown that the district court selected the sentence
based on clearly erroneous facts or committed any procedural error, much less
a significant one, by imposing the upward variance based in part on the need
to protect the public from further criminal conduct. See Gall v. United States,

2

Case: 19-10750

Document: 00515355579

Page: 3

Date Filed: 03/23/2020

No. 19-10750
552 U.S. 38, 51 (2007).

Accordingly, the district court’s judgment is

AFFIRMED.

3

APPENDIX B

Case 4:19-cr-00015-A Document 31 Filed 06/24/19

Page 1 of 5 PageID 72

Case 4:19-cr-00015-A Document 31 Filed 06/24/19

Page 2 of 5 PageID 73

Case 4:19-cr-00015-A Document 31 Filed 06/24/19

Page 3 of 5 PageID 74

Case 4:19-cr-00015-A Document 31 Filed 06/24/19

Page 4 of 5 PageID 75

Case 4:19-cr-00015-A Document 31 Filed 06/24/19

Page 5 of 5 PageID 76

